Direct Dial: (212) 894-6710
Direct Fax: (212) 370-4453
sstegich@condonlaw.com

September 8, 2021
Via ECF and FedEx
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Servotronics, Inc. v. Rolls-Royce PLC and The Boeing Company, Docket No. 20-794
Dear Mr. Harris:
As counsel of record for petitioner Servotronics, Inc., I am writing to report that Servotronics
anticipates filing a dismissal motion pursuant to Rule 46 of the Rules of the Court within the
next few days.
Sincerely,

Katherine B. Posner
Counsel of Record for Petitioner Servotronics, Inc.
KBP/br
cc:

Lisa S. Blatt, Esq.
Counsel of Record for Respondent Rolls-Royce PLC
Scott P. Martin, Esq.
Counsel of Record for Respondent The Boeing Company

